     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103
December 14, 2011

Report Number: A-09-11-02028

Ms. Amy Jampel
Vice President of Medicare Programs
Hawaii Medical Service Association
10-Medicare Programs Departments
P.O. Box 860
Honolulu, HI 96808-0860

Dear Ms. Jampel:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part D Prescription Drug Event Data
for Schedule II Drugs at Hawaii Medical Service Association. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-02028 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Amy Jampel


Direct Reply to HHS Action Official:

Mr. Timothy B. Hill
Deputy Director
Center for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF MEDICARE PART D
   PRESCRIPTION DRUG EVENT
  DATA FOR SCHEDULE II DRUGS
      AT HAWAII MEDICAL
     SERVICE ASSOCIATION




                       Daniel R. Levinson
                        Inspector General

                         December 2011
                         A-09-11-02028
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. A Part D sponsor may contract with a pharmacy benefits manager
(PBM) to manage or administer the prescription drug benefit on the sponsor’s behalf. Pursuant
to 42 CFR § 423.505(i), the sponsor maintains ultimate responsibility for complying with its
contract with CMS, which includes compliance with all Federal laws, regulations, and guidance.

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. Certain fields in the
PDE record are completed using information provided by the pharmacy responsible for filling
the prescriptions. The PDE record, which is a summary record of individual drug claim
transactions at the pharmacy, enables CMS to make payment to the sponsor and otherwise
administer the Part D benefit. Pursuant to 42 CFR § 423.505(k), the sponsor must provide
certification as to the accuracy, completion, and truthfulness of the claims data submitted for
payment purposes.
The Controlled Substances Act established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. Schedule II drugs have a high potential for
abuse, have an accepted medical use (with severe restrictions), and may cause severe
psychological or physical dependence if abused. Pursuant to 21 CFR § 1306.12(a), Schedule II
prescription drugs may not be refilled. However, 21 CFR § 1306.13(b) provides that Schedule II
drugs for patients residing in a long-term-care facility and for the terminally ill may be partially
filled as long as the total quantity dispensed does not exceed the total quantity prescribed. Under
this provision, Schedule II prescriptions for these patients are valid for a period not to exceed
60 days from the issue date. In addition, pursuant to 21 CFR § 1306.11, Schedule II drugs may
not be dispensed without a practitioner’s written prescription.

As a Part D sponsor, Hawaii Medical Service Association (HMSA) provided prescription drug
coverage to 119 beneficiaries and submitted to CMS 403 PDE records for Schedule II drugs for
dates of service from January 1, 2008, through June 30, 2010. HMSA contracted with Argus
Health Systems, Inc., through December 2009 and Medco Health Solutions, Inc., beginning
January 2010 to provide PBM services, including claims processing and adjudication as well as
preparation and submission of PDE records.




                                                 i
OBJECTIVE

Our objective was to determine whether HMSA had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.

SUMMARY OF FINDING

HMSA had adequate controls to prevent refills and unallowable partial fills of Schedule II drugs.
Of 10 judgmentally selected PDE records, no records represented refills or unallowable partial
fills. However, HMSA did not have adequate controls to ensure the accuracy of the PDE records
submitted for Schedule II drugs as required by Federal regulations. Of the 10 PDE records,
2 records contained inaccurate data when compared with the supporting documentation at the
pharmacy.

The PBMs’ claims processing systems did not have edits to ensure the accuracy of the PDE
records. In addition, HMSA has not provided to pharmacies adequate guidance clarifying
Federal requirements related to submitting accurate claim information for Schedule II drugs.

RECOMMENDATIONS

We recommend that HMSA:

   •   strengthen its controls to ensure the accuracy of submitted PDE records and

   •   issue adequate guidance to its pharmacies clarifying Federal requirements related to
       submission of accurate claim information for Schedule II drugs.

HAWAII MEDICAL SERVICE ASSOCIATION COMMENTS

In written comments on our draft report, HMSA concurred with our finding and
recommendations and provided information on actions that it planned to take to address the
recommendations. HMSA’s comments are included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Medicare Part D .............................................................................................1
              Prescription Drug Event Data ........................................................................1
              Controlled Substances ....................................................................................1
              Hawaii Medical Service Association, Argus Health Systems, Inc., and
                Medco Health Solutions, Inc.......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope .............................................................................................................3
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................4

          FEDERAL REQUIREMENTS FOR SPONSORS....................................................4

          INACCURATE PRESCRIPTION DRUG EVENT DATA ......................................5

          INADEQUATE CONTROLS ...................................................................................5

          CONCLUSION ..........................................................................................................5

          RECOMMENDATIONS ..........................................................................................5

          HAWAII MEDICAL SERVICE ASSOCIATION COMMENTS ...........................5

APPENDIX

          HAWAII MEDICAL SERVICE ASSOCIATION COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. Sponsors may offer prescription drug benefits through a standalone
prescription drug plan or as part of a managed care plan, known as a Medicare Advantage
Prescription Drug Plan.

A Part D sponsor may contract with a pharmacy benefits manager (PBM) to manage or
administer the prescription drug benefit on the sponsor’s behalf. PBM responsibilities vary, but
include services such as processing and paying prescription drug claims, contracting with
pharmacies, and negotiating rebates with drug manufacturers. Pursuant to 42 CFR § 423.505(i),
the sponsor maintains ultimate responsibility for complying with its contracts with CMS, which
includes compliance with all Federal laws, regulations, and guidance.

Prescription Drug Event Data

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. The PDE record,
which is a summary record of individual drug claim transactions at the pharmacy, enables CMS
to make payment to the sponsor and otherwise administer the Part D benefit. Pursuant to
42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy, completion, and
truthfulness of the claims data submitted for payment purposes.
A Part D sponsor, or its PBM, completes certain fields in the PDE record using information
provided by the pharmacy responsible for filling the prescription. A PDE record contains fields
that identify (1) the sponsor, beneficiary, prescriber identifier, pharmacy, drug, prescription
reference number, and fill number; (2) the dates that the prescription was filled and the PDE
record was processed; (3) the prescription drug cost and other payment information; and
(4) physician’s instructions on whether generic drugs may be dispensed.

Controlled Substances

The Controlled Substances Act (CSA), 21 U.S.C. §§ 801–971, established five schedules based
on the medical use acceptance and the potential for abuse of the substance or drug. Schedule I,



                                               1
which includes drugs or substances that have no currently accepted medical use and a high
potential for abuse, is the most restrictive, and Schedule V is the least restrictive.

Schedule II drugs have a high potential for abuse, have an accepted medical use in treatment in
the United States or an accepted medical use with severe restrictions, and may cause severe
psychological or physical dependence if abused (21 U.S.C. § 812(b)(2)). Except in emergency
situations or when dispensed directly by a practitioner other than a pharmacist to the ultimate
user, Schedule II drugs may not be dispensed without a practitioner’s written prescription
(21 CFR § 1306.11). Schedule II drugs include drugs such as oxycodone and morphine.

Pursuant to 21 CFR § 1306.12(a), Schedule II prescription drugs may not be refilled. However,
21 CFR § 1306.13(b) provides that Schedule II drugs for patients residing in a long-term-care
facility and for the terminally ill may be partially filled as long as the total quantity dispensed
does not exceed the total quantity prescribed. 1 Under this provision, Schedule II prescriptions
for these patients are valid for a period not to exceed 60 days from the issue date. 2

Hawaii Medical Service Association, Argus Health Systems, Inc., and
Medco Health Solutions, Inc.

As a Part D sponsor, Hawaii Medical Service Association (HMSA) provided prescription drug
coverage to 119 beneficiaries and submitted to CMS 403 PDE records for Schedule II drugs for
dates of service from January 1, 2008, through June 30, 2010. For these PDE records,
pharmacies were paid $14,934. 3 HMSA contracted with Argus Health Systems, Inc. (Argus),
through December 2009 and Medco Health Solutions, Inc. (Medco), beginning January 2010 to
provide PBM services, including claims processing and adjudication as well as preparation and
submission of PDE records. HMSA maintained its own contracts with pharmacies and
established a policy that disallowed partial fills of Schedule II drugs.

As HMSA’s PBMs, Argus and Medco processed prescription claims from pharmacies for each
drug dispensing event. Argus and Medco used their claims software to process prescription
claims at the point of sale, which included implementing a series of edits and calculating certain
data elements. Argus and Medco used these data elements, as well as other Part D data, to create
PDE records. Argus and Medco submitted PDE records to CMS weekly and biweekly,
respectively. Argus and Medco also performed audits of the data received from pharmacies.
HMSA maintained an oversight role in Argus’ and Medco’s PBM processes.



1
  The CSA has an exception to the written prescription requirement for Schedule II drug prescriptions written for
residents of long-term-care facilities. A prescription received by fax may serve as the original prescription.
2
  Federal regulations (21 CFR § 1306.13(a)) also permit the partial filling of a prescription for a Schedule II drug if
the pharmacist is unable to supply the full quantity prescribed. The remaining portion of the prescription may be
filled within 72 hours of the first partial filling; however, if the remaining portion is not or cannot be filled within
the 72-hour period, the pharmacist may not dispense any further quantity without a new prescription.
3
  The amount paid to the pharmacies is on behalf of the sponsor, beneficiaries, and third parties. The $14,934
includes the amounts paid for original submissions of PDE records as well as any subsequent adjustments.


                                                            2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether HMSA had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.

Scope

We limited our review to 287 PDE records for dates of service from January 1, 2008, through
June 30, 2010, representing $12,203 paid for Schedule II drugs under HMSA’s one standalone
prescription drug plan. We excluded from our review PDE records that were (1) for noncovered
Part D drugs under the prescription drug plan, (2) deleted, (3) plan-to-plan reconciliations,
(4) subsequently adjusted, or (5) submitted in a nonstandard format.

We limited our review of internal controls to gaining an understanding of how HMSA
maintained and monitored PDE records for Schedule II drugs and oversaw pharmacies’ claiming
of these drugs. We did not review the completeness of the PDE records; we limited our review
to the fields in the PDE records that contained data provided by the pharmacies responsible for
filling the prescriptions.

We conducted our audit from May to August 2011 and performed fieldwork at HMSA’s office in
Honolulu, Hawaii, and at selected pharmacies.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed HMSA’s contract with CMS regarding its roles and responsibilities as a Part D
        sponsor;

   •    reviewed HMSA’s contracts with Argus and Medco regarding processing of pharmacy
        claims;

   •    reviewed HMSA’s contracts with selected pharmacies regarding submission of claims;

   •    interviewed HMSA officials regarding their monitoring and oversight of PDE data;

   •    obtained HMSA’s PDE records for Schedule II drugs for dates of service from
        January 1, 2008, through June 30, 2010 (processed by CMS through March 2011);




                                                 3
   •   analyzed the PDE records by beneficiary, prescription reference number, and fill number
       to determine whether the records represented potential refills and/or potential
       unallowable partial fills;

   •   selected a judgmental sample of 10 PDE records and reviewed the supporting
       documentation at the pharmacies that submitted those claims to identify refills and
       unallowable partial fills and to determine the accuracy of certain fields in the PDE
       records; and

   •   shared the results of our audit with HMSA officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

HMSA had adequate controls to prevent refills and unallowable partial fills of Schedule II drugs.
Of 10 judgmentally selected PDE records, no records represented refills or unallowable partial
fills. However, HMSA did not have adequate controls to ensure the accuracy of the PDE records
submitted for Schedule II drugs as required by Federal regulations. Of the 10 PDE records,
2 records contained inaccurate data when compared with the supporting documentation at the
pharmacy.

The PBMs’ claims processing systems did not have edits to ensure the accuracy of the PDE
records. In addition, HMSA has not provided to pharmacies adequate guidance clarifying
Federal requirements related to submitting accurate claim information for Schedule II drugs.

FEDERAL REQUIREMENTS FOR SPONSORS

Pursuant to 42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy,
completion, and truthfulness of the claims data submitted. For every individual drug claim
transaction at the pharmacy, the Part D sponsor or its PBM prepares a PDE record.

Notwithstanding any relationship that the sponsor may have with related entities, contractors, or
subcontractors, the sponsor maintains ultimate responsibility for complying with its contracts
with CMS, which includes compliance with all Federal laws, regulations, and CMS instructions
(42 CFR § 423.505(i)). In addition, CMS’s Prescription Drug Benefit Manual, chapter 9,
section 50.2.6.3.1, recommends that the sponsor have systems capability to establish edits and
use edits to automatically deny claims or suspend payments on claims when appropriate.




                                                4
INACCURATE PRESCRIPTION DRUG EVENT DATA

Of 10 judgmentally selected PDE records, 2 records contained inaccurate data. We considered
data to be inaccurate when certain fields in the PDE records did not match the supporting
documentation that we reviewed at the pharmacies. For the two records that contained
inaccurate data, the prescriber identifier did not match the prescriber information on the
prescription maintained at the pharmacy. Specifically, the pharmacy provided its own
identification number for the prescriber identifier field rather than the prescribing physician’s
identification number.

INADEQUATE CONTROLS

Argus’ and Medco’s monitoring efforts included the use of edits in their claims processing
systems to prevent payment for duplicate claims and to identify claims that had been
resubmitted, adjusted, or deleted. However, the edits did not ensure the accuracy of the
prescriber identifier field in the PDE records based on information provided by the pharmacy.
HMSA stated that the edits for the prescriber identifier field ensured that a prescriber’s
identification number was active; however the edits did not ensure that the prescriber’s
identification number matched the identification number of the physician on the prescription.

HMSA stated that Argus and Medco sent correspondence to HMSA’s network pharmacies on
operational and procedural issues related to claims processing. However, HMSA has not
provided to pharmacies adequate guidance clarifying Federal requirements on submitting
accurate claim information for Schedule II drugs.

CONCLUSION

Schedule II drugs have a high potential for abuse. Adequate controls to ensure the accuracy of
data in submitted PDE records is essential to program integrity. Without adequate controls,
Part D sponsors cannot properly oversee the dispensing and monitoring of Schedule II drugs.

RECOMMENDATIONS

We recommend that HMSA:

   •   strengthen its controls to ensure the accuracy of submitted PDE records and

   •   issue adequate guidance to its pharmacies clarifying Federal requirements related to
       submission of accurate claim information for Schedule II drugs.

HAWAII MEDICAL SERVICE ASSOCIATION COMMENTS

In written comments on our draft report, HMSA concurred with our finding and
recommendations and provided information on actions that it planned to take to address the
recommendations. HMSA’s comments are included in their entirety as the Appendix.




                                                 5
APPENDIX
                                                  Page 1 of 2

APPENDIX: HAWAII MEDICAL SERVICE ASSOCIATION COMMENTS
Page 2 of 2
